Inspection of INS' Strategy for Securing the Northern Border
Foreword
The Office of the Inspector General (OIG) issued its report entitled "Border Patrol Efforts Along the Northern Border" to
the Immigration and Naturalization Service (INS) on February 18, 2000.  That report was designated as a "Limited Official
Use" document, requiring restricted distribution,because it identifies significant and specific gaps in the INS's northern
border operations and could compromise the safety of Border Patrol Agents stationed along the northern border.  For this
reason, the OIG created the version of the report that follows, extracting sensitive information.  Although this version does
not expose the specific weaknesses of northern border security, it draws a general picture of the increasing illegal activity
along the northern border and the limited resources available to address that activity.
Border Patrol Efforts Along the Northern BorderReport Number I-2000-04
INTRODUCTION
Since its creation in 1924, the Border Patrol has operated with the following mission:  to detect and prevent the smuggling
and illegal entry of undocumented aliens into the United States and to apprehend persons in the United States whose status
is in violation of immigration law.  In 1991, the Office of National Drug Control Policy designated the Border Patrol with
primary responsibility for the interdiction of drugs on U.S. land borders between the ports of entry.
This inspection examined the Border Patrol's efforts, in its eight northern sectors, to control illegal activity between the
ports of entry along the border between the United States and Canada.  We focused on the following areas:
identifying what illegal activity occurs along the northern border,
determining how the Border Patrol collects and assesses information about illegal activity and how the
Border Patrol responds to it, and
evaluating the allocation of Border Patrol resources to the northern border.
BACKGROUND
Border Patrol Strategic Plan
In 1994, the Border Patrol issued its Border Patrol Strategic Plan 1994 and Beyond.  This plan outlines four
phases for controlling U.S. borders, beginning with the areas experiencing the greatest illegal activity:
Phase I -  Control San Diego and El Paso Corridors
Phase II -  Control South Texas and Tucson Corridors
Phase III -  Control Remainder of Southwest Border
Phase IV -  Control all the United States Borders/Adjust to Flow
There are no specific goals to be achieved in each phase of the plan and no target dates for completing one
phase or beginning another.  The plan dictates that when the Border Patrol achieves control in one
area--"control" is not specifically defined but largely indicated by an increase in the flow of illegal traffic to other
areas--it will move on to the next phase of the plan.  According to headquarters officials, the Border Patrol is
currently engaged in Phase II, for the most part, although some Phase I operations continue as necessary.
Efforts to secure the northern border are part of Phase IV, which, based on the current strategic plan, has no
projected start date.
The Border Patrol's strategic plan recognizes that as Border Patrol Agents (BPAs) curtail illegal activity in one
area, such activity will increase in other areas.  This scenario has played out across the southwest, and now
signs indicate that illegal activity being thwarted on the southwest border is beginning to crop up along the
northern border.
Border Patrol staffing
The nearly 4,000 miles of border between the United States and Canada are managed by 8 of the Border
Patrol's 21 sectors.  As of September 30, 1999, 311 of the national total of 8,364 BPAs (3.7 percent) were
assigned to northern border sectors.  In keeping with its strategic plan, the Border Patrol deploys the majority of
BPAs to the approximately 2,000-mile southwest border.  In FY 1999, 7,706 BPAs (92.1 percent of total BPAs)
were assigned to the 9 southwest Border Patrol sectors (76 stations).  The remaining 347 BPAs were assigned
to the coastal sectors, headquarters, INS regional offices, and the Border Patrol Academy.
The number of BPAs nationwide has increased significantly since the enactment of the Violent Crime Control
and Law Enforcement Act of 1994, which authorized the deployment of an additional 1,000 BPAs a year for
each of the four years beginning with FY 1995.  (The Illegal Immigration Reform and Immigrant Responsibility
Act of 1996 contained language that mandated these increases through FY 2001.)  From FY 1995 through FY
1998, all additional BPAs were allocated to the southwest border.  In FY 1999, at the direction of Congress,
22 additional BPAs were allocated to the northern border.
RESULTS OF THE INSPECTION
Border Patrol sectors on the Canadian border face significant law enforcement challenges, even though the
volume of known illegal alien and drug trafficking is much less than it is along the Mexican border.  Between
FY 1993 and FY 1998, the Border Patrol's eight northern sectors apprehended 81,285 deportable individuals,
including 5,704 smuggled aliens.  In addition, the northern sectors apprehended 4,384 non-deportable
individuals--legal permanent residents and U.S. citizens--for criminal activity (e.g., alien smuggling).  These
statistics quantify the successes of the Border Patrol.  However, they do not provide an indication of the nature
or extent of illegal activity that goes undetected due to limited staffing and resources.
Although the numbers of incidents is low, BPAs in the northern border sectors experience organized criminal
activity more often than BPAs along the southwest border.  According to Border Patrol workload data (G-23
data) for FY 1993 through FY 1998, the BPAs in northern border sectors were 14 times as likely to encounter
an alien involved with smuggling weapons and 9 times as likely to encounter an alien involved with smuggling
drugs when compared to BPAs in southwest sectors. (1)
Illegal activity along the northern border is facilitated by the fact that it is an open border and one that includes
unpatrolled waterways and vast stretches of wilderness with little enforcement presence.  Border Patrol officials
report that smuggling activity along the northern border goes in both directions, with smugglers often moving a
different commodity in each direction.  Besides illegal aliens, illicit trade includes drugs, guns, currency, and
other contraband.
BPAs and other law enforcement officers we interviewed and intelligence reports we reviewed indicated that
illegal activity along the northern border--illegal immigration, alien smuggling, drug trafficking--is increasing.  In
addition to the illegal activity that is detected, Border Patrol and INS officials believe a great deal of illegal
activity goes undetected because there are not enough BPAs to monitor it and there is only limited surveillance
equipment available to detect it.
THE BORDER PATROL FACES INCREASING ILLEGAL ACTIVITY ALONG THE NORTHERN BORDER
Illegal immigration and alien smuggling
Many of the BPAs we interviewed stated that illegal activity along the northern border is increasing.  INS's 1997
Anti-Smuggling Strategy document states that "[i]ntelligence information suggests that use of the Northern
border by smuggling organizations is on the rise." (2)  In general, the document says, alien smuggling operations are
growing in volume and sophistication.  The Criminal Intelligence Service Canada, an organization that
coordinates intelligence gathering efforts of several Canadian law enforcement agencies, stated in its 1998
annual report (available on the Internet) that many illegal aliens use Canada as a transit point on their way to
the United States.  In many cases, their entry into Canada is facilitated by the fact that they do not need a visa
to enter Canada. (3)  Northern Border Patrol sectors have identified trends in illegal immigration and alien
smuggling operations, including an influx of nationals from China, South Korea, and Mexico crossing the border
illegally.
In December 1998, a joint operation, led by INS investigators and involving law enforcement agencies in
the United States and Canada, broke up a smuggling ring that for two years had used the Akwesasne
Mohawk Territory in New York to smuggle approximately 3,600 undocumented Chinese nationals into the
United States. (4)  According to INS, smugglers charged individuals as much as $47,000 each to transport
them from China and get them jobs, mainly in New York City.  The smugglers may have netted as much as
$170 million.  As a result of the investigation, 35 suspected smugglers were arrested, and warrants were
issued for 12 others.
South Koreans and Mexicans are not required to obtain a visa to enter Canada.  Consequently,
increasing numbers of citizens of both countries are traveling to Canada and later illegally entering the
United States.
Drug smuggling
The porous nature of the border, coupled with limited enforcement, reduces the likelihood of interdiction
between the ports of entry.  Therefore, as noted by various intelligence sources, drug smugglers have targeted
the northern border.  Border Patrol officials report that smugglers simply walk across the border in remote
areas, carrying drugs in backpacks, or use all-terrain vehicles and snowmobiles to transport their illicit cargo.
Along the northern border, BPAs face a number of drug interdiction challenges.
Canada produces at least 800 metric tons (881.6 U.S. tons) of marijuana annually. (5)  Most of that is
hydroponic marijuana with a THC content of 20 to 30 percent, which, the Royal Canadian Mounted Police
(RCMP) reports, can sell for as much as $6,000 a pound. (6)  (In contrast, Mexican marijuana has a lower
THC content, usually ranging between 0.5 and 7 percent, and sells for about $700 a pound.)  A large
percentage of the hydroponic marijuana grown in Canada is destined for sale in the United States.
At least 70 percent of the estimated 16 to 26 tons of cocaine smuggled into Canada annually is destined
for the United States, according to the RCMP.
Various intelligence sources report that heroin from Asia is being shipped by organized crime groups to
Vancouver, British Columbia. From Vancouver, heroin is transported to various parts of the United States
(e.g., Seattle and New York City).  Heroin is prevalent throughout Canada, and law enforcement agencies
on both sides of the border are concerned because they have detected decreasing prices for heroin and
increasing purity of the heroin available.  These factors increase the severity of the heroin problem.
The Canadian government has placed no legal controls upon the precursor chemicals that are used to
manufacture methamphetamine.  These substances, which are being bought in large quantities with cash
and under assumed names, are then smuggled across the border into the United States for use in
clandestine methamphetamine labs.
INS IS UNABLE TO ASSESS THE LEVEL OF ILLEGAL ACTIVITY ALONG THE NORTHERN BORDER
Because the Border Patrol lacks the resources to monitor illegal activity along the northern border, it cannot
accurately quantify how many illegal aliens and drug smugglers it fails to apprehend.  The number of BPAs
available simply cannot patrol the entire length of the border.  "Force-multipliers," such as cameras and
sensors, aid the Border Patrol in its surveillance and interdiction activities, but the northern border sectors do
not have adequate amounts of such equipment.  For example, at the time of our inspection, one northern border
sector had identified 65 smuggling corridors along the more than 300 miles of border within its area of
responsibility.  However, the sector had only 36 sensors with which to monitor those corridors.
Existing data do not provide an accurate measurement of illegal activity
INS officials indicated to us that INS's only official data are those supplied by its Office of Statistics, such as the
G-23 data we obtained.  In addition, INS officials indicated that the G-23 data are the principal measurement
tools used by INS.  These data indicate that the number of alien apprehensions along the northern border
dropped 7 percent between FY 1994 and FY 1998.  In addition, the number of non-deportable individuals
apprehended, the incidences of drugs seized, the number of alien smugglers located, and other key measures
of illegal activity have all declined during this same period.
The G-23 data do not provide an accurate picture of illegal activity along the northern border.  According to INS
officials, the G-23 data are collected mainly to track workload activities, which reduces their value for
intelligence purposes.  INS officials described to us other shortcomings of the data, which include, but are not
limited to, the following:
Workload focus:  The G-23 data track workload activities (e.g., the number of hours BPAs spent on
border control) and the results of those activities (e.g., number of aliens apprehended).  Consequently, the
G-23 data are affected by the number of hours BPAs spent on certain activities and do not provide an
accurate measure of overall illegal activity.  For example, the number of apprehensions reported for the
northern border sectors decreased when BPAs were detailed away from northern sectors to work on the
southwest border.  In other words, the reduction in apprehensions may reflect a reduction in BPAs rather
than a drop in crime.
Influence of outside factors:  As a measure of workload activities, the G23 data are heavily influenced by
changes in how the work is performed.  For example, the Border Patrol recently revised its enforcement
strategy, placing greater emphasis on direct border control, where BPAs concentrate efforts on preventing
aliens from crossing the border, rather than on interior enforcement, where multiple aliens can be
apprehended at a single home or work site.  Border Patrol officials with whom we spoke believe this
accounts for the 21 percent drop in apprehensions from FY 1997 to FY 1998 for the northern border sectors.
BORDER PATROL'S CAPACITY TO RESPOND IS DISPROPORTIONATE TO THE AMOUNT OF ILLEGAL
ACTIVITY
Data that do exist indicate that, at current staffing levels, illegal activity exceeds the Border Patrol's capacity to
respond.  Northern border sectors use various methods to track their ability to respond to illegal activity,
including the following:
Sensor hits:  Many northern border sectors have only recently begun to track their rate of response to
sensor hits, and the amount of data available varies widely. (7)  However, the data we collected clearly
indicates that the northern border sectors are unable to respond to all of their sensor hits.
Border Activity Reporting:  Some northern border sectors have begun using a Border Activity Reporting
system, dividing the sectors into grids and tracking intrusions, responses, apprehensions, and enforcement
hours.  Using this system, one northern border sector concluded that it is not able to successfully patrol
remote areas of the border at current manpower levels.  That sector also reported that, in its preliminary
efforts to identify corridors of entry along the northern border, it discovered that cross-border activity was
greater than previously estimated.
Cameras:  Camera footage can be used to analyze situations when BPAs were unable to respond to
illegal activity.  For example, one northern border sector reviews the output from its cameras and compares
the number of illegal crossings recorded when no BPA was able to respond with the number of incidents in
which a BPA responded to activity picked up by the cameras and made apprehensions.  After making these
comparisons, the sector assessed itself to be only six to seven percent effective at its current staffing level.
Allocation of BPAs to northern sectors showed no increase until FY 1999
Even though the total number of BPAs nationwide has steadily increased since 1994, the number of BPAs on
the northern border actually declined for three years due to attrition and to the lack of money to cover moving
expenses of BPAs who might otherwise have relocated to the northern border to fill a vacancy there.  No new
BPA positions were allocated to northern sectors until FY 1999.
Northern border sectors have shifts with no coverage
Shifts with no Border Patrol coverage leave the northern border wide open to criminal activity.  Intelligence
officers told us that criminals monitor the Border Patrol's radio communications and observe their actions.
These criminals know the times when the fewest BPAs are on duty, and they plan their illegal operations
accordingly.  The Border Patrol realizes this risk, but, because of the low numbers of BPAs in northern border
sectors, the Border Patrol simply cannot cover all shifts 24 hours a day, 7 days a week.  (Most sector officials
we interviewed believed around-the-clock coverage was the minimum acceptable level of coverage for Border
Patrol stations.)
The lack of coverage for some shifts not only affects the Border Patrol's ability to make apprehensions, it also
limits the Border Patrol's ability to observe and record the level of illegal activity that occurs.  Some of the
sectors are aware of illegal activity but do not have enough BPAs to monitor it.  For example, BPAs in one
northern border sector identified a possible alien and drug smuggling organization along the border but reported
that, because of a lack of technological resources (i.e. sensors, cameras, etc.) and the shortage of BPAs in the
area, they could only conduct sporadic surveillance.  Thus, they could not assess the suspects' organizational
capabilities and intent to break the law.
Northern border sectors lack crucial equipment
Priorities set by the Border Patrol's strategic plan dictate that the needs of the southwest border come first when
equipment is allocated.  Although the northern border does receive some new equipment, several northern
sectors have made requests year after year for equipment they still have not received.  Throughout our
inspection, northern border sector officials expressed needs for everything from better vehicles to more
sensors.  Because the needs of the various sectors are diverse and the availability of equipment somewhat
dependent upon which region the sector falls in, we are highlighting only a few crosscutting needs here:
Radios:  A majority of the officials we interviewed--from INS regions, Border Patrol sectors, and other
agencies--voiced the need for the Border Patrol to have secure radios because they believe smugglers and
criminals are listening in on the Border Patrol's radio transmissions.  That compromises enforcement
operations and threatens officer safety.  The Department of Justice has a plan for a consolidated Justice
Wireless Network (JWN) that will provide secure communications for all Department components.
According to the plan, all INS locations will have secure communications by the year 2005.  The JWN plan
supersedes previous INS plans for the installation of a secure radio network.  At the time of our review,
northern Border Patrol sectors were not aware of the JWN plan and implementation schedule.
Cameras:  Cameras have proven instrumental in identifying illegal activity and ensuring apprehensions
(when BPAs are available to respond).  All of the northern border sectors have requested cameras in their
recent budget submissions.  Some requests are for cameras where none currently exist and some are
requests to replace antiquated equipment.
Boats:  Because of the number of waterways along the northern border, boats can be essential to the
Border Patrol (e.g., Detroit and Buffalo sectors are responsible for border composed entirely of water).
However, shortages of boats and other problems limit the Border Patrol's ability to patrol waterways along
the border.  Some stations that have waterways within their area of responsibility have no boats at all.
Some sectors have boats that are inappropriate for the particular needs of the sector.  For example, one
northern sector is using is a speedboat that was seized in the Miami sector.  Although the boat was
retrofitted for law enforcement use, it is not ideally suited for the northern border waterways.  At two of the
stations in another northern sector, the boats in operation are old boats that had been taken out of service in
other sectors, repaired, and sent to that sector.  In one northern sector, the boat was out of service for
FY 1997 and much of FY 1998 because it needed expensive repairs for which the sector had no funding.
Other factors affect the Border Patrol's enforcement capability
Details:  Virtually everyone we spoke with during our site visits, whether from the Border Patrol or from
an outside entity (e.g., local police departments, the DEA, the RCMP), said that detailing BPAs from
northern sectors to the southwest border to support the BPA-intensive operations there has had an adverse
effect on operations in northern sectors.  Because of the already small numbers of BPAs in northern sectors,
detailing three or four BPAs significantly reduced a sector's staffing and sometimes caused a lack of
coverage for entire shifts.  It also caused a lack of continuity in organized enforcement operations.
Lack of detention space:  More often than not, once BPAs have processed apprehended aliens, they
release the aliens pending a court date. (8)  Releasing apprehended aliens is common practice because of
shortages in detention space.  Funding for detention is not under the Border Patrol's control, and the
sectors' ability to detain apprehended aliens is often subject to restrictions placed on them by INS Districts.
Many BPAs we spoke with expressed frustration with the inability to detain apprehended aliens, a practice
referred to as the "catch and release program."  Releasing so many aliens does not achieve the deterrence
that the Border Patrol strives to promote.
CONCLUSION AND RECOMMENDATIONS
We found that serious illegal activity--illegal immigration, alien smuggling, drug trafficking--is occurring
along the northern border.  And the level of illegal activity is likely much greater than the Border Patrol
can document, given the general lack of intelligence information relating to the northern border and the
limited number of BPAs available to patrol the area and collect intelligence information.  Based on
interviews with BPAs and other law enforcement officers, as well as intelligence reports we reviewed, we
conclude that illegal activity is increasing along the northern border and that smuggling operations are
becoming increasingly sophisticated.
The Border Patrol's Strategic Plan, issued in 1994, does not address the northern border until the fourth
and final phase of the plan.  Presently, the Border Patrol is in Phase II of its strategic plan and no date
has been indicated for implementation of Phase IV.  In addition, the plan does not articulate the
strategies that the Border Patrol will use to control the "increased entries" it anticipates along the
northern border once it has achieved control of the southwest border.  Our findings suggest that Phase
IV of the plan needs to be developed in greater detail to address the problems facing the northern border
sectors.  Securing the northern border requires careful planning, built upon reliable data, the knowledge
and insights of individuals experienced in securing the northern border, as well as lessons the Border
Patrol has learned while implementing the strategic plan on the southwest border.  Therefore, we
recommend that:
1. The INS Commissioner direct the Border Patrol to outline the approach it will take, prior to and during
Phase IV, to secure the northern border.
3.	The INS Commissioner evaluate whether there is a continuing need to detail BPAs out of northern
sectors at the current levels.
Afterword
INS concurred with all of the OIG's findings, as well as the two recommendations, and proposed corrective
actions.
1. G-23 data is part of an INS system used to track workload statistics.  From the G-23 data, we determined the percentage of
apprehended individuals who exhibited selected characteristics (e.g., alien with weapon) for the eight northern border sectors and the
nine sectors with responsibility for the land border with Mexico.  We then divided the percentage for the northern border sectors by the
percentage for the southwestern sectors.  These calculations allowed us to determine how likely northern border sectors were to
encounter a given characteristic (based on individuals apprehended) compared with the southwestern sectors.
2.
A working group, directed by INS's Office of Field Operations and composed of representatives from the Border Patrol, Investigations,
Intelligence, International Affairs, and Asset Forfeiture, drafted INS's national Anti-Smuggling Strategy to "disrupt the means and methods which
facilitate alien smuggling utilizing traditional and non-traditional enforcement efforts."
3.
Canada allows citizens of more than 50 countries to enter Canada without a visa.  (The number fluctuates because Canada rescinds its visa waiver
for a country when significant immigration abuse occurs.)  The United States requires a visa for citizens of more than 20 of the 50 countries for
which Canada has waived the visa requirement.
4.
The Akwesasne Mohawk Territory straddles the border, flanked on one side by the state of New York and on the other by two Canadian provinces,
Ontario and Quebec.  This configuration raises questions of jurisdiction, which are compounded by the Mohawks' claims of sovereignty.
Smugglers take advantage of the conflicting authorities.  Besides illegal aliens, drugs, guns, and other contraband are also moved through the
territory.
5.
Drug Situation Canada, Royal Canadian Mounted Police Criminal Intelligence Directorate, March 1999.  (Available on the Internet)
6.
THC stands for tetrahydrocannabinol, the main psychoactive ingredient in marijuana.
7.
Sensors are electronic devices that the Border Patrol places strategically along the border to monitor crossing activity.  There are various kinds of
sensors--some detect motion, some are sensitive to ground vibrations--but their common purpose is to signal an alert when persons or vehicles
pass near them.  (Animals can also set off a sensor.)  Such an alert is called a hit.
8.
The Border Patrol does detain apprehended aliens when required by law to do so (e.g., in the case of aliens who are aggravated felons).